<html>
<title> - ETHICS REFORM</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                             ETHICS REFORM

=======================================================================

                                HEARING

                               before the

                           COMMITTEE ON RULES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   ON

                              H. RES. 168

TO IMPLEMENT THE RECOMMENDATIONS OF THE BIPARTISAN HOUSE ETHICS REFORM 
                               TASK FORCE

                               __________

                           SEPTEMBER 17, 1997

                               __________

             Printed for the use of the Committee on Rules



                               <snowflake>



                     U.S. GOVERNMENT PRINTING OFFICE
 45-381 cc                  WASHINGTON : 1997
_______________________________________________________________________
           For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                           COMMITTEE ON RULES

                GERALD B.H. SOLOMON, New York, Chairman

DAVID DREIER, California             JOHN JOSEPH MOAKLEY, Massachusetts
PORTER GOSS, Florida                 MARTIN FROST, Texas
JOHN LINDER, Georgia                 TONY P. HALL, Ohio
DEBORAH PRYCE, Ohio                  LOUISE M. SLAUGHTER, New York
LINCOLN DIAZ-BALART, Florida
SCOTT McINNIS, Colorado
DOC HASTINGS, Washington
SUE MYRICK, North Carolina

                    William D. Crosby, Chief Counsel

                    Daniel J. Keniry, Staff Director

              George C. Crawford, Minority Staff Director

           Bryan H.Roth, Office Manager/Systems Administrator

                                 ______

             Subcommittee on Legislative and Budget Process

                     PORTER GOSS, Florida, Chairman

JOHN LINDER, Georgia                 MARTIN FROST, Texas
DEBORAH PRYCE, Ohio                  JOHN JOSEPH MOAKLEY, Massachusetts
DOC HASTINGS, Washington
GERALD B.H. SOLOMON, New York

                          Wendy Selig, Counsel

                Kristi Walseth, Minority Staff Director

                                 ______

          Subcommittee on Rules and Organization of the House

                   DAVID DREIER, California, Chairman

LINCOLN DIAZ-BALART, Florida         TONY P. HALL, Ohio
SCOTT McINNIS, Colorado              LOUISE M. SLAUGHTER, New York
SUE MYRICK, North Carolina
GERALD B.H. SOLOMON, New York

                       Vincent Randazzo, Counsel

                Michael Gessel, Minority Staff Director

                                  (II)



                            C O N T E N T S

                               __________
                                                                   Page

                           September 16, 1997

Opening statement of Hon. Gerald B.H. Solomon, chairman of the 
  Committee on Rules                                                  1
Opening statement of Hon. John Joseph Moakley, ranking member of 
  the Committee on Rules                                              2
Statement of:
    Livingston, Hon. Bob, a Representative in Congress from the 
      State of Louisiana.........................................     4
    Cardin, Hon. Benjamin L., a Representative in Congress from 
      the State of Maryland......................................     6
    Dreier, Hon. David, a Representative in Congress from the 
      State of California (prepared statement p.18)..............    16
    Hamilton, Hon. Lee, a Representative in Congress from the 
      State of Indiana (prepared statement p.24).................    22
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut...................................    27
    Pelosi, Hon. Nancy, a Representative in Congress from the 
      State of California (prepared statement p. 33).............    31
    Menendez, Hon. Robert, a Representative in Congress from the 
      State of New Jersey........................................    36
    Barrett, Hon. Thomas M., a Representative in Congress from 
      the State of Wisconsin.....................................    38
    Shays Hon. Christopher, a Representative in Congress from the 
      State of Connecticut.......................................    38
    Hostettler, Hon. John N., a Representative in Congress from 
      the State of Indiana.......................................    40
Statement submitted for the record:
    McHale, Hon. Paul, a Representative in Congress from the 
      State of Pennsylvania......................................    29


  H.RES.168, TO IMPLEMENT THE RECOMMENDATIONS OF THE BIPARTISAN HOUSE 
                        ETHICS REFORM TASK FORCE

                              ----------                              


                     Wednesday, September 17, 1997

                  House of Representatives,
                                Committee on Rules,
                                                   Washington, D.C.
    The committee met, pursuant to call, at 2:50 p.m. in Room 
H-313, The Capitol, Hon. Gerald B.H. Solomon [chairman of the 
committee] presiding.
    Present: Representatives Solomon, Dreier, Linder, Pryce, 
Diaz-Balart, McInnis, Hastings, Myrick, Moakley, Frost, Hall 
and Slaughter.
    The Chairman. The committee will come to order.
    The measure before the Rules Committee today is House 
Resolution 168, which implements the recommendations of the 
bipartisan House Ethics Reform Task Force.
    I want to begin this hearing by commending the two 
cochairmen of this bipartisan task force, the Chairman of the 
Appropriations Committee, Mr. Livingston, and Mr. Cardin.
    The gentleman from Louisiana and the gentleman from 
Maryland have put in long hours negotiating every word and 
every phrase in the resolution before the Rules Committee 
today, and I mean every word and every phrase. We are grateful 
to them for their work.
    The Ethics Reform Task Force was bipartisan, consisting of 
six Republicans and six Democrats. Those of us who served on 
the task force, including four members of the Rules Committee, 
can attest that all of the task force members put in long hours 
of hearings and markup sessions over a period of months, 
certainly Mr. Moakley, the Ranking Member of the Rules 
Committee, and Mr. Frost. Incidentally, Mr. Goss, was called 
back to Florida because of a serious illness in his family, and 
unfortunately can't be here with us today and that is too bad, 
because he put in such a lot of work, both on the ethics 
committee with you, Ben, and on the task force itself.
    Having said that, the House established this task force 
back in February of this year in order to recommend reforms in 
the House standards process. There are many of us who feel that 
the existing process did not function well in the last 
Congress, and needs improvement, particularly in trying to 
remove the politics from the ethics committee. It is a very, 
very serious matter.
    At the same time this task force was established, the House 
also approved a moratorium on the filing of new ethics 
complaints, which, as a result of a number of extensions 
remained in effect until September 10th, 1997. As I understand 
it, the two cochairmen may have a bipartisan manager's 
amendment to make it clear that any complaints that are filed 
after September 10, but before the adoption of this resolution, 
will be considered under the new procedures in this resolution.
    As we begin this hearing, there are a couple points that 
should be made about the functions of the Committee on 
Standards of Official Conduct. First, the committee is not a 
court of law. Members of Congress, like any other citizens, are 
already answerable in the courts for any violations of law, 
particularly since a law that we passed back in the beginning 
of 1995, which brings Members of Congress, and all of this 
Congress, under all of the laws that the rest of the American 
citizens have to live under. The Committee on Standards of 
Official Conduct, the ethics committee, as it is better known, 
is a peer review mechanism.
    The United States Constitution, in Article 1, provides that 
each House may punish its Members for disorderly behavior, and 
with the concurrence of two-thirds they may even expel a 
Member, which they have done on other occasions.
    I would like to emphasize that the Constitution says that 
each House may punish its Members; it does not say that some 
outside group will punish Members.
    It should also be noted the House of Representatives' Code 
of Official Conduct sets a higher standard than just conforming 
to the laws. For example, under the Code of Conduct, a Member, 
officer, or employee of the House of Representatives, shall 
conduct himself or herself at all times in a manner which shall 
reflect creditably on this House of Representatives that we are 
all so privileged to serve in. The Committee on Standards of 
Official Conduct is the mechanism by which Members should hold 
themselves to that higher standard. We should set the example, 
I think, for the rest of society.
    The resolution which is before the Rules Committee today is 
a somewhat controversial matter. Members have different 
opinions and they hold those opinions very strongly. We need to 
remember to respect those opinions of other Members, even as we 
disagree. Sometimes that is hard to do when you are very 
opinionated, and I guess I am one of those Members.
    Now, if my colleague on the Minority side has an opening 
statement, I would be pleased to recognize him, after which we 
will certainly go to the testimony of these very, very 
distinguished Members of this House of Representatives. Mr. 
Moakley.
    Mr. Moakley. Thank you very much, Mr. Chairman.
    Mr. Chairman, I am very glad this committee is finally 
considering the hard work of the bipartisan ethics task force, 
and I very much hope that I won't be disappointed in the 
outcome.
    As you all know, 9 months ago, Mr. Chairman, you, Mr. 
Frost, Mr. Goss and I, along with eight other people, began 
work on the ethics task force. We had at least 36 meetings, and 
every single one of us negotiated on very important issues, 
because all of us, Democrats and Republicans alike, thought our 
work was going to amount to something. In fact, nearly every 
Member of the House thought our work was going to become 
something.
    The Democratic leadership agreed to nine separate ethics 
moratoriums and, thanks to the moratoriums, we have had 9 
months during which no ethics complaints have been filed. It 
wasn't for nothing.
    The task force came up with some very good suggestions on 
how to improve our ethics process. These suggestions were 
approved by 11 of the 12 members of the task force, and while 
the task force was meeting, we agreed, in no uncertain terms, 
that no amendments would be offered to the package, unless they 
were agreed to by the cochairs, Congressman Livingston and 
Congressman Cardin, who both did outstanding work. I hope my 
Republican colleagues will stick to that agreement.
    Because my Republican colleagues decided to use their 
muscle to make partisan changes to the House ethics process, it 
will be the first time in history, Mr. Chairman, the first time 
in the history of this House that recommendations of a 
bipartisan ethics task force would have been undermined by 
partisan Members. If you turn this into a partisan issue, how 
can any Member, Democrat or Republican, ever have faith in the 
ethics committee?
    For my part, I sincerely hope my colleagues stand by our 
agreement. Democrats have dealt in good faith throughout this 
entire process, now Republicans must do the same.
    So I prevail on you, my friend, Chairman Solomon and Mr. 
Goss and all of us, to honor the work of the task force on 
which you served. If these recommendations don't have the 
support of the House, then so be it. But at least allow it to 
be considered for an up or down vote. So I urge my colleagues 
to protect this package from the vagaries of the House floor, 
unless both Mr. Cardin and Mr. Livingston agree to those 
changes.
    Thank you very much, Mr. Chairman.
    The Chairman. Mr. Moakley, you are my friend and you always 
will be, but I just have to take exception to some of your 
statement, particularly in the last part, the "vagaries of the 
House." Now I don't understand that, but I do know that there 
are 435 Members of the Congress, I respect all of them, even 
though we vehemently disagree with some of them from time to 
time.
    You mentioned "use their muscle" for partisan amendments. 
Let me just assure you that since I made the announcement on 
the floor almost a week ago, that Members would be invited to 
offer amendments to this package, because they are equally 
representative, from the 435 districts in this country, 
representing approximately 600,000 people each, that they are 
entitled to be heard. We received 10 amendments that are before 
us, 5 of them are bipartisan, and 5 of them are partisan, 
meaning they do not have an opposite party cosponsor. There 
were about 15 other amendments that were sent to us without 
names, some have arrived anonymously and others were dropped 
off, but they were just suggestions to us. I did not even 
bother to print those that were dropped off anonymously.
    Mr. Moakley. I commend you for that, Mr. Chairman.
    The Chairman. We have the other amendments that do have a 
sponsor listed on the sheets before you, and after we receive 
the testimony from these two distinguished Members, we can 
debate the issues. But I will say this, I will exercise the 
prerogative of the Chair and guarantee that there will be no 
partisan amendments allowed on the floor on this issue. There 
could be three or four, including a bipartisan amendment by the 
cochairs of the committee, that I believe should be allowed. 
Let the House work its will, but only on those that are truly 
of a bipartisan nature.
    Now having said that, let me again express my gratitude to 
both Members, to Bob Livingston and Ben Cardin, you are both 
highly respected Members, that is why you were chosen to head 
this very, very important task force to try to bring some 
semblance of comity to the House and have ethics we can all be 
proud of.
    Having said that, let me now recognize Bob Livingston. Mr. 
Livingston, you have the floor, sir.

   STATEMENT OF THE HON. BOB LIVINGSTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Livingston. Thank you very much, Mr. Chairman, and I am 
delighted to appear before you with my cochair, Ben Cardin, who 
has worked tirelessly with me, and all of the members of the 
task force, to try to restore some integrity and some 
credibility to the rules by which Members are judged under the 
standards of official conduct.
    I want to pay a special tribute, not only to Mr. Cardin, 
but to you, sir, Mr. Chairman, for your service on the Task 
Force, for that of Mr. Moakley, and as well, Bill Thomas, 
Porter Goss, Mike Castle, Jim Hanson, Lou Stokes, Martin Frost, 
Nancy Pelosi, and Howard Berman. Each of them in their 
respected capacities as members of the task force were 
tireless, were dedicated, were conscientious, were honest and 
decent about trying to bring about a package which removes the 
ethics process, the determination of whether people may or may 
not have violated the standards set by the House of 
Representatives for its Members for ethical conduct, so that 
what may have happened in the last Congress, and before, when 
the process may have gotten bogged down into politics, will 
never happen again.
    Now obviously that is a tall order, Mr. Chairman. Witness 
after witness came before us and said that you can have the 
very best rules that God could design. In fact, you could have 
the ten commandments themselves and if you had an individual or 
individuals on the Committee on the Standards of Official 
Conduct who wanted to misuse those rules to his own purposes or 
to his political purposes, for the benefit of himself or his 
party, those rules would do no good, that they could not serve 
well, and that you might as well not have any rules at all.
    Now that being said, I think we have done a pretty good 
job. I think we have got a superb package, which I recommend to 
you in its totality. All of the members pitched in from early 
February of this year, through June. We hashed out every word, 
paragraph, dot and jot in the bill, and then again went back 
and did it in the report.
    We closed the bill to amendment by a vote of 12 to nothing, 
and the report, by formal or informal vote, was adopted by a 
vote of 11 to 1. I think that was significant in and of itself.
    We then took our final package, with Minority views, 
printed them up, made them available to all of the membership 
of the House of Representatives, over a period of this last 3 
months, if Members chose to, they could have paid attention, 
they could have delved into this process, into as great a 
degree as they wanted to, to come up with amendments which may 
or may not be considered by this subcommittee. But as you 
pointed out, we have encouraged Members, if they intended to 
amend them, that they do so in a bipartisan fashion, and I 
think that is significant because this was a bipartisan 
package. In fact, the ethics process which began roughly after 
the years of Watergate has evolved only as Mr. Moakley has 
pointed out, in a bipartisan fashion.
    Generally speaking, neither party has come to the floor and 
offered up its own amendments or its own proposals for the 
disposition of the rules of the House. So I, as one of the 
cochairs, with Mr. Cardin, have believed it was important we 
come up with a strongly bipartisan package initially, but I do 
not believe that we were vested with the wisdom of the ages 
that were so perfect that other Members couldn't offer up 
suggestions if they did so to change our proposals in a 
bipartisan fashion.
    And so I have no significant objection to your allowing 
amendments, if you accept them from Members of both parties, 
together, or jointly, so long as I--so long as what they 
offered does not disrupt the overall fabric or tenor or content 
of the package that we have evolved and contributed so vitally 
to.
    What we have come up with is a package which provides 
nonpartisan operations of the Standards Committee; it enhances 
the confidentiality of the Standards Committee's activities; it 
improves the system for filing information, which is offered as 
a complaint; it more efficiently administers the standards of 
the committee; it provides greater due process for Members, 
officers, and employees of the House of Representatives; it 
provides greater involvement by Members in the process; it 
provides faster resolution of matters before the Standards 
Committee; it gives greater latitude to the Chairman and 
Ranking Member to rid themselves of inconsequential or 
frivolous matters; in fact, gives the power to the committee 
itself to deal with frivolous complaints; and I think presents 
an overall package of significant peer review.
    Doctors who are professionals are in charge of policing 
their own within the medical community. Likewise, lawyers 
police their own within the legal community, and university 
professors do as well. Well, I think it is very appropriate for 
Members of Congress to do it as well.
    There were suggestions by very well-intentioned, well-
meaning Members of Congress that we go outside to other 
persons, other very highly qualified citizens of this country, 
to entrust the fate of Members to their hands to determine 
whether or not they had violated the rules of conduct, and I 
think by a overwhelming majority of the task force votes that 
thought, that concept, was not approved and was rejected.
    We believe that in the citation that you provided in your 
very eloquent opening statement, under the Constitution, that 
we are the arbiters of our own conduct, and that we should 
judge our peers and we should not be relieved of that 
responsibility, nor should we do so in partisan manner or 
should we, in any way, inject politics into the process.
    The fact that in the opinion of many of us, politics was 
delved in in this process in the past, has unfortunately done 
much to poison the well of feeling of Members of confidence in 
the rules. It is our hope that this process, this work product, 
will restore that confidence, that we, as a body of 435 Members 
in the House, and additional delegates, will understand that 
the administration of the rules of conduct in this House will 
not be maintained or undertaken in a partisan fashion, and that 
all fairness, all due process, will be accorded to the Members, 
but that meaningful and significant violations of the rules of 
conduct will be dealt with and developed--dealt with fairly and 
justly and severely if necessary.
    The Chairman. Chairman Livingston, thank you very, very 
much, and, again, I commend you for all of your work on this 
issue.
    The Chairman. Mr. Cardin, you have the floor, sir.

 STATEMENT OF THE HON. BENJAMIN L. CARDIN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Cardin. Thank you, Mr. Chairman.
    I first want to thank you, Mr. Chairman, Mr. Moakley, Mr. 
Frost, and Mr. Goss for your service on this joint committee. I 
think the members of the Rules Committee should appreciate the 
leadership that was shown by the four members of the Rules 
Committee on our task force. They provided a great deal of 
insight about the history of the ethics process and the work of 
this committee, and I really want to first thank you for your 
dedication to this institution and the valuable contributions 
that each of you have made. One does not get many fringe 
benefits for serving on the ethics committee or the ethics task 
force.
    Mr. Dreier. Or on Rules Committee.
    Mr. Cardin. Or on Rules Committee.
    The one fringe benefit I gained was to get to know Bob 
Livingston and see him dedicate his leadership to this 
institution. I must tell you, he conducted himself at all times 
with the best interest of this institution at heart, including 
on some very difficult days, and we have worked in a bipartisan 
manner, and for that I am grateful.
    The Republicans are in the majority in Congress, Bob 
Livingston conducted the work of our task force in a truly 
bipartisan manner, and I am deeply appreciative of that. He 
listened to everyone, and I think as a result of his leadership 
we have a product that I hope will be approved by the full 
House.
    Bob has touched on some of the provisions. Let me just 
cover them quickly, because I think it is important that we do 
not miss this opportunity to improve the ethics process.
    The package before you will make the process less partisan 
by providing for professional nonpartisan staff to be appointed 
by the ethics committee, by allowing the ranking member as well 
as the chairman to have access to establishing the agenda of 
the ethics committee.
    It promotes confidentiality within the committee and its 
work, something that I know every Member of Congress is 
concerned about. It makes it clear that all investigative 
meetings of the ethics committee will be closed and provides 
for confidentiality oaths for members who serve on the ethics 
committee. In order to protect a Member's confidentiality, it 
allows the ethics committee to directly refer, to Federal 
agencies, matters without having to first take such matters to 
the House floor if there is an extraordinary vote within the 
committee.
    It improves the system on the filing of complaints. We have 
abolished or recommend the abolition of the three-member 
refusal, and it is substituted with the process that we think 
makes much more sense, direct following by people who are 
nonmembers of Congress, but they must have personal knowledge 
in order to file such a complaint.
    We provide for a more efficient administration of the 
committee itself. The initial fact finding would be done by the 
chairman and ranking member, preserving the bifurcated process 
of the ethics committee. Subpoenas and expansions of scope of 
authority of an investigation would be handled within the 
subcommittee, again, protecting the bifurcation of the ethics 
process and allowing investigations to be handled more 
efficiently.
    Due process for the Member is protected at every point by 
giving the Member notice of a statement of alleged violations 
that is going to be voted on by the committee, as well as 
expanding the notice that Members receives at every aspect of 
an ethics investigation.
    There is greater involvement of the Members of Congress in 
the ethics process. We establish for the first time a pool of 
20 additional Members who can assist the ethics committee in 
investigation, getting more Members involved in the ethics 
process.
    We limit to four years the service on ethics committee and 
provide for rotation of its members, again, in order to involve 
more people in understanding how the ethics process itself 
works.
    We provide for more timely resolutions of matters that are 
before the committee. The chairman and ranking member have 14 
days to determine on an initial complaint that is filed whether 
or not such a complaint meets the standards for what is a 
complaint. The chairman or ranking member have certain 
authority to manage the case load of the committee and to 
recommend disposition on matters that can be handled very 
quickly. There are time limits on when matters must be referred 
into fact finding so that a matter can't just sit with the 
Chairman and ranking Member in definitely.
    These are all positive changes in the ethics process. Now 
how are we going to get this done? We need a vote on the floor 
of the House to approve this ethics package, and I would urge 
this committee to bring this recommendation out with a closed 
rule. Every Member of this House has already had an opportunity 
to submit his or her recommendations to our task force. Many 
took advantage of that. Many of those recommendations are 
included in the product that is before us. So the Members of 
the House have already had an opportunity to present their 
recommendations to the bipartisan task force.
    I am deeply concerned that when you start to allow one 
amendment to be considered on a matter that has been 
compromised by the task force in order for it to have 
bipartisan support, you can lose that bipartisan nature of this 
recommendation.
    I have spoken to many, many, Democrats and Republicans, and 
they all agree. However, speaking on behalf of the Democrats, 
we are confident that this package can go as is and there is no 
need for any amendments to be made in order.
    Lastly, let me point out, I have looked over the amendments 
that have been suggested, Mr. Chairman. In just about every 
case, you will recall that these matters were before our task 
force. We debated them, we went through them, and we came to a 
conclusion that these changes should not be in the package that 
we submit.
    For example, we reviewed the possibility of imposing 
deadlines that would require dismissal. However, we concluded 
that that would just encourage partisan activity in the 
committee and would lead to delay rather than more efficient 
operation of the committee. We also reviewed whether or not we 
should restrict the way complaints can be filed. We concluded 
that if our current proposal is not updated, we would need to 
go back to the current rules to at least provide nonmembers 
some opportunity such as that which exists under the current 
practice. So these matters have already been reviewed.
    I talked about the scope of an investigation or subpoena 
power. It is important for a subcommittee to have those 
particular rights, so that we don't compromise the bifurcation 
of the process. I am afraid that with such short debate on the 
House floor, it is going to be virtually impossible for us to 
go through how an amendment, as well intended as it may be, 
received the type of debate in our task force that it did. As 
you know, we spent days debating each of these subjects, went 
through all the ramifications. It is not going to be possible 
for us to do that on the floor of the House. That is why the 
joint leadership constituted a bipartisan task force in order 
to bring out the recommendations.
    So I would urge the committee, in its wisdom, to let the 
recommendations come forward to the full House and to give us a 
closed rule.
    I have looked over all the amendments. None of the 
amendments that are offered can truly be called bipartisan. We 
have already debated them within the taks force and we have 
already taken action on them.
    Lastly, let me say, Mr. Chairman, although I do hope you 
bring out this matter as a closed rule with just the manager's 
amendment being in order, if other amendments are made in 
order, then I do hope that you will preserve the Minority's 
right for a motion to recommit, with or without instructions.
    Thank you.
    The Chairman. Thank you.
    Thank you again, and let me just say to your last 
statement, under the rules of the House, this is a simple House 
resolution which does not require the right of Minority to have 
a motion to recommit.
    However, it would be the intention, I am sure, of the 
committee, if amendments are made in order, we extend that to 
this simple House resolution as well. Again, I don't want to 
belabor the amendments that have been offered. There are a 
number of them.
    There were three areas that really concerned, I think, 
Members of both sides of the aisle that I personally heard 
from, others, and you, that were, as you stated correctly, 
debated in our task force, and one is the ability of outside 
organizations to file complaints; another is the question of 
dismissal, so that complaints don't lie in limbo for just an 
indefinite period of time; and the question of a subcommittee, 
once it had been given jurisdiction, within a particular scope, 
that it not be allowed to go beyond that scope without having 
to go back to the full committee. And certainly you, who served 
on the ethics committee so admirably all those years, you 
understand that.
    We had those concerns that were stated by former members of 
the ethics committee, worried that subcommittees might go 
beyond the scope that they were originally given jurisdiction 
for.
    So these are areas that I personally was concerned about, 
as you recall, after hearing our debates. We can debate that 
here, and we can state an honest opinion of where we stand.
    Now having said that, I am going to apologize for having to 
leave the floor here just for a moment. I had previously 
scheduled a meeting with two very distinguished noted people 
from the private sector, and I am going to go off to the floor 
here just for a few minutes to chat with them. I will be right 
back. I hope you understand. One is a noted actor, somewhat 
renowned. His name is John Travolta, and he is sitting in the 
back, back here. And another, if you like jazz music, which I 
do, is Chick Corea, who is a famous jazz musician.
    Mr. Dreier, if you would like to take over for a moment.
    Mr. Moakley. Mr. Chairman, I hope this is a screen test you 
are going to have.
    The Chairman. Just because you look like the man who came 
to dinner.
    Mr. Dreier. We prefer it to be a screen test, rather than 
having you start to play the piano in the next room.
    Let me extend my appreciation to both of you for your very 
hard work. Since we are introducing people in the room, I 
should note the fact that Lee Hamilton is sitting in the front 
row, and the last time we had a project such as the one your 
task force undertook was four years ago. In 1993, in the wake 
of a wide range of scandals, we established what was known as 
the Joint Committee on the Organization of Congress.
    During that period of time--I heard Joe Moakley mention a 
number of hearings and the meetings you all had--we spent a 
great deal of time in a bipartisan way working with both the 
House and the Senate on the issue of ethics reform. 
Unfortunately--and I would argue it is the fact we weren't in 
majority; I think most Democrats will even admit that--the 
package we came out with didn't move to the floor, and I don't 
think we got as far as the Rules Committee on it; Lee, back 
then, we weren't able to move ahead with it.
    But we did have a specific recommendation as it related to 
the ethics issue, and Lee and I testified before the task force 
on it, and we are sorry you weren't able to incorporate that in 
your proposal. I know there are a number of Members who opposed 
it, but I am going to be speaking with Mr. Hamilton in support 
of the effort to do some things that I think you all have 
touched on, and I think if we had our proposal, we would not 
only not undermine the integ- 
rity, but in fact would really enhance the integrity of the 
work product that you have. And that is not to, in any way, 
cede our constitutional responsibility for policing the actions 
of our colleagues, but simply to have some outsiders--in fact, 
a pool from which the committee would draw--appointed jointly 
by the Speaker of the House and the Minority Leader to make a 
determination; people who would simply do the fact-finding. And 
we, in a very, very bipartisan way supported that.
    We had a number of very distinguished Democrats and 
Republicans who served on the Joint Committee on the 
Organization of Congress. When we knew of the work you all were 
proceeding with, Lee and I came to testify, as I said. And I 
think that if we are going to be making amendments in order, it 
is a bipartisan amendment, I would hope very much that we could 
make ours in order.
    I am going to take a few minutes to explain the package 
with Lee before the committee, but you all are familiar with 
it, and maybe you would like to comment on it now, and I would 
certainly welcome that.
    Mr. Cardin. Well, first, Mr. Dreier, I want to thank you, 
and Mr. Hamilton, for the work you have done. I think it is a 
good proposal which looks at a different way to handle ethics 
issues in the Congress. But you can't avoid the constitutional 
responsibility. It is up to the Members of the House to judge 
their own, it is required in the Constitution, and how we do 
that is how we will be judged.
    I am concerned that your proposal compromises the 
Constitution's responsibility. We did consider it. We rejected 
the proposal. It is truly a bipartisan effort; I would 
acknowledge that there is interest on both sides of the aisle, 
Democrats and Republicans, who believe we should use outsiders 
at least in the initial stages of investigation. And there are 
also some credible outside groups that have also made that 
recommendation, so I think it is a very credible proposal.
    I would hope, though, that the House will give our process 
a chance to work. And when you take a look at the many cases 
and matters that have been handled over time by the ethics 
committee, you can see that the committee has done a pretty 
good job.
    We talk about having deadlocks within the committee. In 
fact, there hasn't been a single case that has not been able to 
be handled within the ethics process. Some cases may have taken 
a while, but the ethics committee was able to resolve them and, 
I think, satisfactorily.
    So I hope we can reform the process for internal review. 
Although our recommendation defers from your type of 
recommendation, let us see whether the new procedures won't 
satisfy many of the concerns that have been raised.
    Mr. Dreier. Before Mr. Livingston says anything, I should 
open by congratulating you by saying we are now voting on final 
passage on the Treasury-Postal appropriations bill on the House 
floor, so congratulations, Mr. Chairman.
    Now you can malign my amendment, if you would like.
    Mr. Livingston. I would never malign your amendment, and I 
thank you for the opportunity to reply.
    Actually, my response is very brief. I agree with Mr. 
Cardin. We did consider your proposal in depth, but 
unfortunately, I think you are premature. Among the members 
that were on this task force, there was not a lot of support. 
That is not to say that at some future date your amendment may 
not ultimately become the rule of the day.
    Mr. Dreier. There is a serious problem with that, though. 
Lee Hamilton is retiring at the end of this Congress, and we 
want to get this through before Lee retires.
    Mr. Livingston. You will forgive us if we don't leap on it 
immediately today, but in the name of Mr. Hamilton, I know 
other members will gleefully join with you in future years to 
offer it, and future task forces will have the opportunity to 
consider it, and I am pleased to say that I won't be on one of 
those task forces.
    I would only add, Mr. Chairman, in addition, that I 
neglected something, and it is very important. Each of us, as 
members of the task force, were represented by personal staff, 
and the staff was headed up by Richard J. Leon, Special 
Counsel; and David H. Laufman, Assistant to the Special 
Counsel, who also serves as counsel on the Standards of 
Official Conduct Committee.
    My own staff, Stan Skocki; and Mr. Cardin's staffperson, 
Michelle Ash, worked with the staff representatives of the 
other members and were of invaluable service. We put countless 
hours in on this work product and despite the fact we left out 
your very worthwhile proposal, Mr. Chairman, I think we did 
come up with a very good product, and we couldn't have done it 
without good staff.
    Mr. Dreier. Congratulations. Mr. Cardin.
    Mr. Cardin. I am glad Mr. Livingston mentioned the staff 
because they did a tremendous job, and we appreciate it.
    Mr. Dreier. Mr. Moakley.
    Mr. Moakley. I really want to commend you, both gentlemen. 
I had the good fortune to be appointed to the task force 
against my will. I had the opportunity to see how both you 
gentlemen worked and, believe me, it was as fair a process as I 
have seen during my entire term in the Congress, and I think 
you came out with a great package.
    It is not perfect, but nothing is. And I think we should 
allow for our membership to vote the entire package up and 
down.
    I agree with Mr. Cardin. I think the amendments that were 
proposed, amendments that we went through word by word, 
sentence by sentence, and found them lacking; and I just think 
that your product should be given to the House for their 
ability to vote up and down.
    Mr. Livingston. Mr. Moakley, if I may reply, I would only 
reinforce your statement, not to the exclusion of any well-
meaning, well-intentioned bipartisan amendment. But the fact 
is, our work product has been reviewed by numerous groups.
    I might say that Mr. Gary Ruskin of the group that is 
affiliated with Ralph Nader doesn't like our package. Common 
Cause, represented by Ms. Ann McBride doesn't like our package. 
But on the other hand, David Mason of the Heritage Foundation, 
Thomas Mann of The Brookings Foundation, and the American 
Enterprise Institute represented by Norman Ornstein are all in 
favor of it and have testified for it and have written in favor 
of it; they think it is a good package as well.
    Mr. Moakley. That is like getting a thumbs-up from Siskel 
and Ebert.
    Mr. Cardin. We should point out that those groups that are 
not happy with the package would like to have seen us go 
further than we did. True there are some parts of the package 
which are controversial with some of the outside groups. 
However, by and large, there is praise for many sections of the 
package by all parties that have been through the process.
    Mr. Moakley. As I say, I am very happy to be even a small 
part of this. I was very fortunate to be able to be in the room 
and watch the two gentleman opposing areas and come right down 
the middle and work it out, and it wasn't political, and I 
commend you for it and I am willing to vote up or down right 
now on this package.
    Mr. Dreier. Mr. Linder.
    Mr. Linder. No questions.
    Mr. Dreier. Mr. Frost.
    Mr. Frost. I just have a question or two for Mr. 
Livingston, particularly about the Murtha-Tauzin amendment, No. 
4. We debated this at great length in the committee on the task 
force. This amendment, if it were adopted by the House, would 
totally remove the ability of any private citizen to file a 
complaint before the ethics committee if that private citizen 
could not convince a Member of Congress to attach his or her 
name to that complaint. What is your position on that?
    Mr. Livingston. Mr. Frost, of all of the amendments, I 
think this is the one that is probably felt more deeply by more 
members than any of the others. This one does in fact revert to 
the Rules of the House prior to 1989, and the revision of those 
rules, which you and I participated in.
    As you recall, there was great pressure to open the rules, 
back in 1989, to outside persons to file against Members of the 
House, and we adopted what I call the "Three Blind Mice Rule." 
The rule says, you can't come in directly, but if you get a 
member to sponsor your filing or if in fact you get three 
people who say they will not sponsor your filing in writing, 
you can file whatever you want.
    Our proposal felt that that was disingenuous and had been 
poorly used, so we abandoned that in this task force program 
and what we proposed was to elevate the standard to require 
personal knowledge of the person filing, to constitute their 
review of personal or records kept in the ordinary course of 
business or personal affairs in Federal-State agencies, or that 
they had to either have seen the event, of which they 
complained, or been told by the person who saw the event, 
thereby being one step removed from hearsay.
    I think that is a pretty good package. However, there are 
those members on both sides of the aisle who feel very strongly 
that by going that far and opening the complaint process to any 
person in the whole world puts some members under political 
pressure for their political views on specific issues, which 
might engender some manufactured complaint against them simply 
because some other person or group might disagree with their 
political views.
    I cannot deny that that is a very strongly felt emotion, 
and for that reason, I am not opposed to this committee making 
the amendment in order. I do believe our package is solid and 
sound; however, I can understand the feelings of those who 
favor that amendment.
    Mr. Frost. If I understand the procedures in the United 
States Senate, the Senate permits third-party groups to file 
complaints, individuals in third-party groups, without being 
sponsored by a Member of the Senate.
    Mr. Livingston. Mr. Frost, they do, but it is my experience 
that they exercise their judgment in selecting those complaints 
which might be entertained as complaints before the committee, 
very judiciously, very strictly. In other words, they really 
don't recognize very many of those complaints.
    Mr. Frost. That, of course, is a separate issue in terms of 
how the committee itself functions. This amendment would be 
seen as closing down the process, and making it more difficult 
for private citizens to raise matters before the ethics 
committee; and quite frankly, though, I wasn't 100 percent in 
agreement with a provision that we ultimately came up with in 
the committee. I think that provision is far superior to this 
provision, and I think it would be a mistake for us to make 
this amendment in order or for the House to adopt this 
amendment.
    Mr. Livingston. That is a valid argument, Mr. Frost, but I 
would say, as you know, we banned outside people from using 
press clippings as the underpinning for private complaints.
    Mr. Frost. As we should have.
    Mr. Livingston. And there is nothing to stop, however, the 
committee taking press clippings of its own volition and under 
its scrutiny and initiating its own complaint, nor is there any 
prohibition against individual members bringing those clippings 
to the attention of members and thereby encouraging a 
complaint.
    The Chairman. [Presiding.] If I might, we only have about a 
minute left on this vote. This is the last vote of the day. It 
is final passage on a bill, so I would suggest we recess for 7 
minutes, go down and vote, and come right back. I think there 
are people who have other questions of you.
    The committee stands in recess for 7 minutes.
    The Chairman. The committee will come back to order. We are 
in the process of recognizing Members for the purposes of 
making statements or asking questions. Ms. Slaughter, you are 
recognized. You may proceed.
    Ms. Slaughter. First, I want to compliment you for this, 
Mr. Chairman. It is bipartisan and the extraordinary way you 
put this together is something we are all proud of. This 20-
person pool of Members that is going to be chosen at the 
beginning of a term and called on when necessary, what would 
trigger that?
    Mr. Cardin. The Majority and Minority Leader would appoint 
the pool at the beginning of the term of Congress. It would be 
an equal number of Democrats and Republicans. The Chairman and 
Ranking Member of the committee would call upon this pool when 
they believed it was necessary for pool members to supplement 
committee. They would need to choose an equal number of 
noncommittee members to work with permanent members of the 
committee so that there will always be an equal number of 
Republicans and Demorcrats. There is no standard other than the 
workload of the committee justifying--
    Ms. Slaughter. Would you choose directly off the list top 
to bottom or would you pick certain Members for various 
expertise?
    Mr. Cardin. That is not really clear. I think the Chairman 
and Ranking Member would probably work with the presiding 
officer and the Minority Leader to figure out what system to 
use. One of the problems is that, in some cases, you may not 
want to use a Member from a particular State because the person 
being reviewed by the ethics committee is from that State. 
Therefore, there may be a need for flexibility in order to make 
sure that there are Members who can sit objectively in 
evaluation of a Member.
    Mr. Livingston. If I may, the reason for the jury pool was 
because that we found in testimony of witnesses and in the 
experiences of counsel and previous Members that the workload 
of prior Standards of Official Conduct Committee members was 
intense, that all of the workload was being done by the full 
committee, that they were constantly being chained to the 
committee room in order to deal with the myriad of allegations 
that were before them against so many Members.
    Of course, we have 435 Members plus delegates. So there was 
a possibility of just unlimited service. Instead of having a 
12-member committee in and of itself, we opted for a 10-member 
committee who would preside over the full committee. It would 
be parceled off into subcommittees. Subcommittees would be 
comprised of at least two, possibly four members of the full 
committee to investigate the activities alleged and would be 
supplemented with members in the jury pool for the 
investigative stages only. And the theory is, under our 
proposal, is that only a few Members will investigate in depth 
the allegations against a single Member and that that will free 
up the full committee to serve as the adjudicatory committee 
with the remaining Members not serving on the subcommittee to 
actually adjudicate once and the investigative subcommittee 
reports to them. And it was really primarily a division of 
workload proposal that prompted us to go to this outside jury 
strictly for the investigative stage.
    Ms. Slaughter. Thank you.
    The Chairman. Before yielding to other Members, I had been 
concerned, as you know, during the task force proceedings about 
frivolous complaints being filed. I had attempted to offer an 
amendment which would have forced those who were obviously 
deliberately filing frivolous complaints and creating an 
expense to the ethics committee, to be responsible for 
reimbursing the committee.
    Ben, I know you were involved in that. We ended up with a 
watered down version. Could you explain to us where we stand on 
that issue in the base text of the bill that will go to the 
floor? We do not have an amendment dealing with it. I am going 
to go along with whatever we did. Just for the record, could 
you explain it to us?
    Mr. Cardin. Mr. Chairman, you were extremely active in the 
task force in pointing out the need to really protect the 
Member, protect the institution, and protect the process from 
complaints that are filed for frivolous reasons. We are all 
very much concerned about that and we want to make sure that we 
discourage those types of matters. There is a provision in the 
resolution that is before you. Section 19, says if a complaint, 
or information offered as a complaint, is deemed frivolous by 
an affirmative vote of the majority of the members of the 
Committee on Standards of Official Conduct, the committee may 
take such action as it, by an affirmative vote of a majority of 
its Members, deems appropriate in the circumstances.
    I think it is a clear message. By having a specific 
provision in the rules, we expect the committee to take action 
against a member who files a frivolous complaint. There are 
already implicit provisions in current ethics rules for such 
abuses of the process. We are now putting an explicit provision 
in the committee rules, actually in the House rules to make it 
clear that we will not tolerate such misconduct.
    The Chairman. I thank you very much. I think that might go 
a long way towards trying to remove some of the politics that 
invariably pop up. If Members know that they are going to be 
held responsible monetarily for frivolous complaints, I think 
it will help correct that problem. I thank you for your work in 
that area. Questions of the witness?
    Ms. Pryce. I would just like to commend the gentlemen for 
their very hard work. It has been very difficult. You came up 
with a wonderful product. I believe myself it can be improved 
upon minimally. But as a former judge, with a keen eye for 
fairness, I think you have done a great service to this body. I 
want to give you my personal thank you. This is something that 
has potential to touch every Member and we cannot be too 
careful. So once again, thank you.
    The Chairman. Mr. Diaz-Balart.
    Mr. Diaz-Balart. You have done great work. Thank you very 
much.
    Mr. McInnis. Mr. Chairman, I also want to commend the 
Members for putting a lot of effort into this. They have done 
an excellent job.
    The Chairman. Mr. Hastings.
    Mr. Hastings. I would like to associate my comments with 
what has been said here. I do not envy you going through this. 
In my time in the State legislature we did not have an ethics 
committee. I don't know if that is good or bad, but I commend 
you for trying to come up with a product that both sides can 
accept. I congratulate you on that.
    The Chairman. Gentlemen, we want to again thank you for 
your diligent work. It is more than likely that we will be on 
the floor with this matter tomorrow and we will certainly take 
your testimony into consideration.
    Mr. Livingston. One last note, Mr. Chairman. Of course, Mr. 
Cardin, and I have agreed to offer a manager's amendment which 
makes applicable, which would make the complaints, make the 
rules that we are adopting, assuming the House does adopt them, 
applicable to all complaints filed since the moratorium was 
lifted until the day that we adopt them so that there is no 
anomaly between the time that the complaints were filed and the 
ultimate rules are adopted.
    Likewise, we will have colloquy on the floor to the effect 
that any previous complaints which are accepted by the 
committee which might have been filed previously will be 
treated in the same man- 
ner, under the new rules adopted. That, of course, is up to the 
discretion of the full committee. I might simply ask for the 
record, though, with respect to the motion to recommit that you 
intend to grant to the Minority, I have no objection to that, 
that motion to recommit be confected in the same bipartisan 
fashion that we have done everything else so that we are not 
surprised or taken off guard by some partisan maneuver.
    The Chairman. Just without question, your manager's 
amendment containing that information will be made in order. 
That will not require a lot of debate, would it? Ten minutes?
    Mr. Cardin. That is fine.
    The Chairman. Thank you very much. That is appreciated.
    The next scheduled witness is the Vice Chairman of the 
Committee on Rules, Mr. David Dreier of California, accompanied 
by one of the most respected Members of this body, the 
gentleman from Indiana, Mr. Hamilton. And Mr. Shays also, if he 
shows up, he is welcome to join you. Your entire statements 
will appear in the record, without objection. I recognize Mr. 
Dreier.

    STATEMENT OF THE HON. DAVID DREIER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Dreier. Mr. Chairman, I thank you very much. Let me 
first express my appreciation, as I have already done so, to 
Lee Hamilton for the effort that he has put into this and, of 
course, for Chris Shays who is joining us and Paul McHale. We 
clearly wanted to subscribe to what both you, Mr. Chairman, and 
Mr. Moakley have said; that is, a bipartisan spirit in dealing 
with this.
    Having heard the names of Tom Mann and Norm Ornstein from 
the chairman of the task force, I also should underscore the 
fact that when the Joint Committee on the Organization of 
Congress met, they played a key role in fashioning this 
amendment, as they at least have been supportive of much of the 
package that has come forth from the task force.
    I think that if one listened to the description that I 
heard from Mr. Livingston as I was walking back in from that 
vote we were having downstairs, I was struck by the fact that 
he was really describing exactly what it is that our amendment 
would do, only he was using present Members whereas we called 
for the involvement of outsiders.
    I know that that sends a red flag up for many people and a 
number of people are concerned about that. But in the Joint 
Committee on the Organization of Congress, we spent a great 
deal of time on this, as you well know. Mr. Chairman, you were 
a member of that committee that Lee and I cochaired and there 
are a number of others here who were part of that effort. We 
spent a great deal of time looking at this.
    We know that this institution has a credibility problem 
among our colleagues, within the press corps and among the 
American people. I think the words of the present Chairman of 
the ethics committee, Jim Hansen, are very key as he, in his 
statement that he signed in the report of this task force made 
it clear that we on the horizon will, if we do not adopt this 
amendment, clearly see outsiders involved.
    Mr. Cardin mentioned in response to my statement his 
concern about the constitutionality of moving ahead with this. 
That obviously was a key item that Lee and I had discussed in 
the joint committee. We clearly want to ensure that Members of 
Congress adjudicate and do handle the policing of our 
colleagues. At the same time, we would have the Speaker of the 
House and the Minority Leader jointly, and I underscore the 
word jointly, appoint 20 individuals, whether they are former 
Members of Congress, retired judges, outsiders, not lobbyists, 
but others who again would jointly be selected, meaning that 
the Speaker could not all of a sudden appoint people who he 
thought would go after the Minority and vice versa, so this 
would be something that would be done in tandem. I think that 
it would help a lot.
    One of the issues that Mr. Livingston raised was this 
workload question for the task force. When I look back at our 
colleague, Porter Goss, and the work that he went through last 
December, it was obviously very overwhelming. It seems to me 
that one of the things that this amendment would do is it would 
allow the fact finding part of it to be done by those people 
who have been appointed. So I really do believe that this 
amendment does not undermine the integrity of the excellent 
work of this task force. I have been very supportive of it.
    Again, I do not think that it raises the kinds of 
constitutional concerns that others have. I appreciate the fact 
that Chris Shays has supported a similar proposal that has come 
forward. Curt Weldon has indicated his interest in this, and 
Paul McHale as well. There are a wide range of Republicans and 
Democrats all the way across the board who are supportive of 
this. Had we not had such diversity in the Joint Committee on 
the Organization of Congress in 1993 supporting it, I do not 
think that we would have gotten to the point where we are 
today.
    Mr. Chairman, I thank you for the consideration. I say 
again that I hope that we will be able to do this before Lee 
Hamilton does retire. As you have said, he will be sorely 
missed. So that is why I sort of suspect that this just might 
be the only opportunity before Lee Hamilton retires for us to 
do it. That is why I have chosen to seize upon it.
     [The prepared statement of Mr. Dreier follows:]
    [GRAPHIC] [TIFF OMITTED] T7094.227
    
    [GRAPHIC] [TIFF OMITTED] T7094.228
    
    [GRAPHIC] [TIFF OMITTED] T7094.229
    
    [GRAPHIC] [TIFF OMITTED] T7094.230
    
    Mr. Moakley. We can file them with the rest of the Hamilton 
papers.
    The Chairman. First of all, we want to thank you, David, 
and Lee Hamilton for the Herculean effort that you made in 
reforming this House. Your effort has made it a better House. 
We are going to miss Lee Hamilton and his family dearly. As I 
said before, he is one of the most respected Members of this 
body.
    Lee, although it is a long time away, a whole year and a 
quarter yet, we know that you are going to have a lot of 
legislation come to the floor between now and then.
    You are recognized.

    STATEMENT OF THE HON. LEE HAMILTON, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Hamilton. Mr. Chairman, it is always a pleasure to come 
before the Committee on Rules because you give very courteous 
treatment to me and to other Members. We deeply appreciate it.
    I want to say that Mr. Livingston and Mr. Cardin have done 
an excellent job. I do not think you can find two busier 
Members in this institution. They have enormous 
responsibilities. And yet they have taken many, many hours, to 
produce this task force report. I think the whole body should 
express appreciation to them.
    I think the proposal that Mr. Dreier and I have put 
together is certainly bipartisan. I think it is very moderate. 
I think it is serious and I think it is meaningful.
    I want to say a special word of appreciation today to Dave 
Dreier. I hope I do not offend anyone by saying this, but it is 
really very unusual for a member of the Committee on Rules to 
disagree with their party leadership. And he is doing that in 
this case. That is extraordinary. It is not unprecedented; it 
has been done, but it does not happen very often.
    Mr. Dreier. What has happened to those who have gone down 
that path?
    Mr. Moakley. They are doing very well in the private 
sector.
    Mr. Hamilton. They usually go before the ethics committee.
    The Chairman. I do not mean to interrupt you. I almost 
found out when I led the fight against NAFTA a few years ago.
    Mr. Hamilton. I, of course, would like my statement put 
into the record.
    The Chairman. Without objection.
    Mr. Hamilton. Let me try to respond to a couple of things.
    I think the thing that worries the task force a lot about 
our proposal, which is to appoint this pool of 20 independent 
fact-finders to be called upon by the Standards Committee for 
ethics investigations, as needed, is the sense of loss of 
control. Members are losing control.
    May I suggest that that really is not the case because what 
you are doing here is keeping the power in the Standards 
Committee, but giving them an option that they now do not have, 
and that is the option to appoint outsiders. They do not have 
to use them; it is within their discretion. If they don't want 
to use them, they don't have to. But if they are in 
circumstances where they think it would be helpful, they can.
    So you do not lose control if you expand options. And I 
think that is what we are doing here.
    Let me emphasize that under our process you use the 
independent fact-finders only when the committee itself makes 
the judgment that the independent fact-finders are helpful.
    The second point I want to address is the point that Mr. 
Cardin made and that is that he saw here an avoidance of 
constitutional responsibility. Dave talked about that. I would 
agree with that if, in fact, we put into the hands of the fact-
finders the power to adjudicate. But we do not do that.
    What we do is delegate one function, and that is the 
investigatory function, and they report to the committee and 
the committee acts on their recommendation. They don't have to 
accept it. That is not an avoidance of constitutional 
responsibility because the House and the committee retain the 
authority for adjudication.
    Mr. Cardin described our proposal as a very creditable 
proposal. I thank him for a that, and Dave and I believe that 
to be the case. If it is the case, then it seems to me that the 
Committee on Rules ought to give the Members of this House the 
chance, the option to vote on it, up or down.
    I do not have the slightest idea how the vote will come 
out. I have run no counts. I know the leadership on both sides 
is opposed to it, so you would normally expect that the 
amendment would not be accepted; but I am not sure of that. But 
I am sure that the Members think enough of this proposal that 
they ought to have a chance to vote on it.
    Mr. Livingston made quite a point, I think, or rather it 
was Mr. Cardin who said that members of the task force reviewed 
very carefully these proposals. I have no doubt of that; I am 
sure they have. But I think Members ought to have that same 
opportunity.
    The advantage of this proposal is that it reduces the 
inherent conflict of interest involved when Members judge 
fellow Members. I think it would reduce the partisan rancor 
that has often accompanied the ethics process. I think it would 
help reduce the stalling that has occurred.
    I think it was either Mr. Livingston or Mr. Cardin who said 
that the ethics process has worked fairly well. I guess I don't 
agree with that judgment. I do not think you would have 
appointed a task force if it had been working so well. The 
reason the task force was appointed is because the leadership 
saw that it was not working very well. I think you have to have 
a creditable task force report or product here if you are going 
to gain greater public confidence in the process.
    I hope you will give this serious consideration. I think it 
is a very modest proposal, indeed and one that would reflect 
credit on the House. I am just quite confident Members would 
appreciate the opportunity to vote on it. I thank you for your 
consideration.
    The Chairman. Thank you for your testimony, Lee. I know you 
were very sincere in your statement.
    [The prepared statement of Mr. Hamilton follows:]
    [GRAPHIC] [TIFF OMITTED] T7094.231
    
    [GRAPHIC] [TIFF OMITTED] T7094.232
    
    [GRAPHIC] [TIFF OMITTED] T7094.233
    
    The Chairman. Mr. Shays.

 STATEMENT OF THE HON. CHRISTOPHER SHAYS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CONNECTICUT

    Mr. Shays. Thank you, Mr. Chairman. I know that you have 
opposed your leadership on a number of occasions. I hope you 
don't have to oppose them to bring forward this amendment. Mr. 
Dreier and Mr. Hamilton, in particular, deserve this 
opportunity since the entire body asked them to have a reform 
committee. It first was the Hamilton-Dreier reform committee, 
and then it became the Dreier-Hamilton reform committee when we 
changed parties, but the bottom line is, they worked on a 
bipartisan basis and did yeoman's work, and they are right on 
target.
    I would say to you that Mr. McHale and I come in with a 
less modest proposal in that we wanted the ethics committee 
basically to be disbanded and people from the outside to come 
in and assume the role of the ethics committee and then refer 
the judgment and action to the Congress. This is a more modest 
proposal and, I think, a happy compromise between both views, 
one between no private membership and those with private 
membership.
    Basically, we have had in the past the lawyers judging 
lawyers; and the American people have said that is an outrage. 
We have had doctors judging doctors, and we got people that 
were not doctors judging doctors; and we need to bring people 
who are not politicians to judge us.
    But we meet the constitutional requirement without any 
doubt whatsoever, because it would only be a proposal to the 
full Congress, in this case to the ethics committee, and the 
ethics committee would vote out the punishment and Congress 
would have to vote on it. We meet the constitutional question 
without any question.
    I would just say to you, we know the system has been abused 
by both parties. We all know it. We also know that the American 
people have no faith in the politicians, elected officials, 
judging each other. And we think that this proposal brings in a 
wonderful element of outsiders who come in and say, this has no 
merit. This was partisan. We do not count it as valid. And they 
could say that when politicians would have a difficult time 
saying it.
    In other cases, they would say, you need to reckon this 
issue. I know you are all friends and I know you all like each 
other, but this is our view and punishment is deserved. Then 
they set on the record a case that we would then have to 
respond to.
    So I strongly urge you, Mr. Chairman, to have that 
independent streak, if necessary--but certainly you are one 
with a good government streak which no one else can match--and 
allow for an honest and open debate on this.
    I will conclude by saying, the one thing that I really 
believed when this new Republican majority took control, that 
we would have more debate and it would be open and we would let 
ideas win or lose on the merits of issue.
    The Chairman. Thank you, Chris, very much.
    Mr. Moakley.
    Mr. Moakley. No questions.
    The Chairman. Any questions of the witnesses?
    If not, again--
    Mr. Dreier. May I ask unanimous consent that a statement of 
Mr. McHale appear in the record?
    The Chairman. Without objection.
    [The prepared statement of Mr. McHale follows:]
    [GRAPHIC] [TIFF OMITTED] T7094.234
    
    [GRAPHIC] [TIFF OMITTED] T7094.235
    
    The Chairman. The next scheduled witness is a very 
respected member of this body and she also was on the task 
force for the ethics reform.
    Ms. Pelosi, if you would like to come forward. Your entire 
statement will appear in the record, too, without objection. 
You may proceed at will.

    STATEMENT OF THE HON. NANCY PELOSI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Pelosi. Thank you, Mr. Chairman.
    Thank you very much, once again, for your courtesy, Mr. 
Moakley and members of the committee. As you mentioned, I 
served with you as a member of the Ethics Reform task force, 
and I am here to support the recommendation of the task force. 
I served for six years, three terms, as a member of the Ethics 
Committee and worked alongside you and our cochair on the task 
force from February until June.
    As you know, we worked every day and we were very well led. 
In both cases, Mr. Livingston and Mr. Cardin worked hard and 
long. They were models of decorum and patience in trying to 
build a consensus from some very divergent views.
    My "additional views" were added to the task force report 
because the report did not include everything I would have 
written personally, but that was no reason for me not to 
support it. The document was a compromise and a bipartisan 
consensus product worthy of support.
    It is predicated on Members of Congress judging their 
peers. The Constitution requires and the American people expect 
Members of Congress to do just that and to uphold a high 
ethical standard. That aspect of the task force, I think, 
should remain intact. That is why I have come before you today, 
Mr. Chairman, to ask that you send the task force report to the 
floor with a closed rule.
    Many of the other suggestions we are hearing today are 
worthy, but the last thing we need in the ethics process now is 
a mishmash. As I said, I would have changed some things in the 
task force final report, but at this point to be amending it, I 
think, is to change the nature of the balance we achieved 
during our four months of deliberations.
    The only other option for the Members of Congress would be 
to keep the rules we have, which I do not think need major 
overhauling. I do think they need enforcement, but not major 
overhauling.
    The task force product is an improvement on the current 
rules. Any haphazard amendment of the task force proposal will 
take us to a place that does not represent progress. Without 
current rules enforced, without the task force report, which 
was thoughtfully prepared, implemented having some combination 
that could present constitutional problems.
    And yes, Congress suffers in terms of its reputation, but 
that does not mean that Congress is not capable of judging its 
own, as the Constitution requires and the American people 
expect.
    In that spirit and on the basis of my many years of 
experience on the committee--and I served also for 1 year as a 
member of the special investigative subcommittee of the ethics 
committee--that seems like ten years rolled into one, but I 
believe that it gave me the credentials to serve on the task 
force, to support its recommendations, and to come before you. 
It is not the report I personally would have written, but it is 
one that I strongly support. I urge you to bring it to the 
floor under a closed rule.
    My request is made with the highest regard for the makers 
of all the other amendments. I see their case. I commend Mr. 
Livingston and Mr. Cardin for their leadership and the product 
that they have presented to the House.
    [The prepared statement of Ms. Pelosi follows:]
    [GRAPHIC] [TIFF OMITTED] T7094.236
    
    [GRAPHIC] [TIFF OMITTED] T7094.237
    
    [GRAPHIC] [TIFF OMITTED] T7094.238
    
    The Chairman. Ms. Pelosi, your opinion is certainly 
respected, and you make a lot of sense.
    We have a responsibility, I think, to be fair to the entire 
membership while at the same time trying to protect the 
committee product, because the committee product, as you 
mentioned, was the basis of much negotiation.
    You stated in the very beginning that you did not get all 
that you wanted. Certainly I did not get all that I wanted. I 
compromised far more than I ever thought I would. So I am put 
in a particular predicament, because some of the bipartisan 
amendments that have been asked for are areas that I fought 
for.
    And I guess what I am going to do, although I haven't made 
up my mind, is, I will probably vote for the product no matter 
what the outcome of the amendments. And should the amendments 
all fail, it would then, in effect, be the same as a closed 
rule and I would probably be voting along with you, because it 
certainly was compromise from both sides, from liberals and 
moderates and conservatives from both sides of the aisle. One 
way or the other, it is going to be a better product than what 
we have to operate under today.
    I appreciate your coming.
    Mr. Moakley?
    Mr. Moakley. I just want to congratulate you, Nancy, for 
your diligence on this committee. You really are a leader to 
some of us on some of the amendments.
    Ms. Pelosi. It was a pleasure working with you, Mr. 
Moakley, and with Mr. Solomon and Mr. Goss, who also serves on 
the Rules Committee. We had the benefit of the thinking of 
members of the Committee on Rules, some of whom had served on 
the ethics committee as well. So some of you had triple 
credentials, and we all benefited from your experience.
    The Chairman. Mr. Dreier?
    Mr. Dreier. No questions.
    The Chairman. Any questions of the witness? If not, Nancy, 
again, thank you very much for coming.
    The next scheduled witness, I believe, is a panel. Mr. 
Menendez is here.
    Mr. Barrett, did you want to testify along with him? Who 
would care to lead off?

  STATEMENT OF THE HON. ROBERT MENENDEZ, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Menendez. Thank you, Mr. Chairman. I thank you and the 
distinguished members of the committee for giving us an 
opportunity to make our case with this amendment.
    Mr. Chairman, Members on both sides of the aisle talk a lot 
about doing away with Washington perks, but this is a chance to 
do something about what I consider a totally unjustifiable 
benefit.
    The floor of the House of Representatives is one that is 
owned by the American people, entrusted to our care so that the 
elected representatives of the people have a place to do the 
people's business; represent the people's views through debate, 
negotiation, and legislation. No other use, I think, could be 
defended to the American people.
    In honor of their service to the people, former Members of 
Congress are given access to the House floor, and if this 
remains an honorary privilege, as I am supportive of, it could 
be defended. But if it is used in any way to personally or 
financially benefit some former Members, it is, in my view, a 
breach of the trust that the American people gave to us.
    The current House rules permit a Member, a former Member, 
to use the House floor to lobby for his or her own personal or 
financial gain so long as it does not concern legislation 
pending on the floor or reported out of committee. Whether or 
not there is legislation pending should not matter. A former 
Member should not be able to use their status to lobby for any 
personal or financial gain on the floor.
    For example, let us say a question regarding a former 
Member's legal fees is pending before the House or before a 
House committee. I believe few, if any, Members would think it 
is proper for that former Member to take to the House floor to 
lobby to have his legal fees paid. But the current rules would 
allow it, and they should not.
    The bipartisan amendment that we are offering here with my 
friends, Mr. Shays of Connecticut and Mr. Barrett, would 
prevent these unethical situations by expanding the current 
prohibition to include denial of access to any Member who has a 
personal or a financial interest in any measure or matter under 
consideration in any committee or any subcommittee.
    There is clear precedent for this type of change, Mr. 
Chairman. Under the current rules, a former Member is already 
barred from the floor if they represent a client for the 
purpose of influencing legislation under consideration in a 
committee or subcommittee. So why should the rules change for 
the Member's personal interests?
    Clearly, the current rules are more lenient when it comes 
to a Member's personal interest, but they should not be, and 
this amendment would rectify that situation.
    For those who might raise--and this is the final point I 
want to bring, Mr. Chairman--a germaneness issue, I would ask, 
when reforming the ethical standards and procedures of the 
House, what could be more critical and important than keeping 
the House floor a sanctuary for democracy for all, not 
privileged for a few, making sure that the people's House 
remains the people's House, not the lobbyists' House, not the 
former Members' House, but the people's House?
    If we are here to restore the confidence of the American 
people in the ethical standards of the House, then this 
amendment exactly does that. I can think of no better vehicle 
for this legislation. I ask that you allow this amendment to be 
considered by the full House, waive any points of order that 
might be held against it.
    The Chairman. Thank you very much, Mr. Menendez.
    The Chairman. Mr. Barrett, would you like to proceed?

 STATEMENT OF THE HON. THOMAS M. BARRETT, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF WISCONSIN

    Mr. Barrett. Mr. Chairman, it is a pleasure again to appear 
before your committee. You have been very kind to us in the 
past, and ti is especially nice for me to appear with my good 
friend Mr. Shays.
    I was actually honored that Mr. Menendez contacted both Mr. 
Shays and me because both of us have appeared here many times 
arguing for amendments that go to the integrity of this 
institution. I am someone who believes that those of us who 
offer these amendments are doing so not to tear down the 
institution but actually to help improve its confidence among 
the public. That is why I am here today.
    I think that this is a sensible rule. I think that Members 
of this body who have left should have the privilege of being 
able to return to talk to their former colleagues. But I think 
that there is a line, that is an important line, that should 
not be crossed. I think that this measure addresses that.
    Clearly, there are times when there are matters before 
committees, whether a committee meets and is initially holding 
informational hearings and there is no legislation pending 
where, under the current rules, a former member could come and 
help shape the course of those informational hearings and 
perhaps go so far as to seek cosponsors for legislation that 
has not yet been introduced. I do not think that that is the 
spirit or the intent of what the rules should be.
    That is why, when I looked at the current rule, I thought 
that this was a very common-sense change that I think will 
improve the rules of the House and in no way deny the access to 
Members who want to come back and talk with former colleagues.
    I very much applaud the work that Mr. Livingston and Mr. 
Cardin have done. I think it is a very significant matter, and 
I am pleased that we are going to be able to vote on this 
matter hopefully tomorrow.
    I would, lastly, share Mr. Menendez's request that any 
issues of germaneness be looked at in the context of what we 
are trying to do in the underlying issue before us today, and 
that is to improve the integrity of this House. This matter is 
before you in exactly the same spirit, and that is to improve 
the integrity of the House.
    Thank you.
    Mr. Dreier. Mr. Shays.

 STATEMENT OF THE HON. CHRISTOPHER SHAYS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CONNECTICUT

    Mr. Shays. Mr. Chairman, I could not be more grateful to 
cosponsor this amendment with Mr. Menendez and Mr. Barrett. I 
believe it is not an issue about one individual; it is an issue 
about the ethical process and standards of the House of 
Representatives.
    I pray that we realize that just as we cannot allow 
individuals to be lobbyists, former Members to be lobbyists 
representing clients on the floor of the House, for the obvious 
reason, and really do not allow them to be on the House floor 
so there is not even a question about it, that we would 
recognize that if they have a personal reason to be before the 
House and to have us be considering issues, that they should 
not be on the House floor as former Members. It seems like, 
frankly, a no-brainer for me. But I just want to emphasize, 
this is sometimes a particular incident, a particular issue 
that can bring it to our attention, but we need to take action. 
But you do not pass a law on a particular--about a particular 
person, particular issue.
    I believe the sincerity of my colleagues on the other side 
of the aisle in bringing this forward is to improve the process 
for all of us and not to have it focus on one individual is 
there, and I sincerely hope that we realize this is a 
bipartisan amendment that deserves the support unanimously of 
the House.
    The Chairman. Chris, thank you. Thank you very much.
    The Chairman. Let me just say that it is my understanding 
that under the rules that Members should not be able to lobby 
on the floor. There are questions and it is a little gray, but 
it does not speak to the particular problem that you are 
concerned with. However, your amendment is not germane to this 
issue. I do not believe that we can support it. I know where 
you are coming from. As a matter of fact, I was involved on the 
floor, Mr. Menendez, when you were earlier today, in trying to 
make sure that even though I did not believe that lobbying was 
taking place, that it should not even be perceived as taking 
place and tried to take care of it.
    But we understand where you are coming from. If we do not 
make your amendment in order today, under the new rules 
packages that we might be considering, we will certainly put 
that in the mix and perhaps it needs to be considered.
    Mr. Menendez. If I may very briefly, Mr. Chairman, first of 
all, I appreciate your comments. Let me just say, I want to 
join Chris Shays' comments in that I offered this as, you know, 
from a filing to the committee before any of today's incidents. 
This is not about an individual. It goes to the integrity of 
the House.
    My example, if a former Member had legal fees pending 
before the House, would it be proper to have he or she on the 
House floor trying to lobby us to get the votes necessary to 
pass their legal fees. I do not think any of us want to be 
placed in that situation. I don't think we want to place this 
institution in that situation. While there may be a question of 
germaneness, this committee has extraordinary powers. In that 
respect, as someone who cosponsored the flag amendment with you 
and was a vocal advocate of it, let me just say why I did that 
is because I believe in the very principles of what it stood 
for, and what it stands for is part of the symbol to the rest 
of the world is the democracy that we have in this House and 
what we show the rest of the world as the democratic process.
    I believe that the committee has the power to do this, and 
the context in which I am asking and my colleagues are asking 
you to do it is an appropriate context and would send the right 
message at a time that we are trying to build the integrity of 
the House back in the minds of the American people. This is 
beyond an individual. I would pursue this throughout this 
Congress if the committee does not see appropriate to provide 
the amendment, and into the next Congress because I believe it 
is something that needs to be addressed.
    I thank you for your discretion.
    Mr. Shays. Will the Chairman entertain an additional 
comment?
    The Chairman. Mr. Shays.
    Mr. Shays. I would make a request to the Chairman that he 
contact the leadership, the Republican leadership to see, given 
that this is a relatively new issue and one in which I think 
many Members might want to address, that they consider 
encouraging this committee to make this amendment in order.
    This is not going to go away. It is going to get worse. I 
think the sooner we nip it in the bud and deal with it, the 
better it will be for everyone, Republican and Democrat.
    The Chairman. We appreciate you gentlemen coming before us. 
We will certainly take your views into consideration.
    Mr. Moakley, any questions?
    Mr. Moakley. No questions.
    The Chairman. Any questions of the witness?
    If not, gentlemen, thank you very much for coming.
    The Chairman. I think we have one last witness scheduled, 
that is the gentlemen who is waiting patiently, Mr. John 
Hostettler of Indiana.
    Congressman, if you would come forward, your entire 
statement will appear in the record without objection, but feel 
free to take whatever time you feel necessary.

 STATEMENT OF THE HON. JOHN N. HOSTETTLER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF INDIANA

    Mr. Hostettler. I thank the committee for the opportunity 
to speak to you about what may be considered to be an unusual 
subject, one that the Parliamentarian says that there may be a 
problem of germaneness, but I think this discussion that we 
have had today highlights the point, a point that I would like 
to make.
    The Chairman and several members of the committee and 
witnesses have cited the Constitution time and time again. I 
think that while my name is the only name on the amendment, 
that this is not a partisan issue. I would like to explain to 
the committee what has happened most recently with my situation 
that has brought this to the attention. This issue I think is 
important to the discussion of what we are talking about here 
and what we do as a House on the floor.
    Earlier this month I was contacted by the ethics committee 
and was told that I would not be able to initiate a 
Constitution project in my district as a result of the rules of 
the House as they are today. There was much action that was 
taking place on the part of my office because we want to have 
the opportunity to expose young people, especially high school 
students, to the United States Constitution and to encourage 
them to read it, deliberate on it, and to make it a part of 
their daily life and understand the importance of it.
    However, as a result of some of the parts of the 
Constitution project, part of the provisions of that, the 
committee said that they would not be able to endorse and allow 
me to continue on with this project. So the project has come to 
a standstill in the committee.
    I think the committee has given a rationale for my 
amendment, and while I believe that I understand that there is 
a problem with germaneness, I think that given the fact that 
today is the 210th anniversary of the ratification of the 
United States Constitution and the constitutional convention, 
it is a time when we should be upholding our oath to support 
and defend the Constitution, to allow Members to take a very 
active part in putting forth the merits of studying the 
Constitution, understanding it and applying it in their daily 
life.
    I would say that I would ask the committee to have this 
amendment made in order. However, as a result of discussions 
that I had with Chairman Livingston and Ranking Member Cardin 
on the task force, they said that they had already put their 
manager's amendment, completed action on that.
    I was trying to get this in the manager's amendment. Both 
of those gentlemen felt that they were in accordance with my 
intent on this amendment. Congressman Cardin graciously said 
that he would work with the Chairman and Ranking Member on this 
issue to try to get that decision turned around. But if the 
rule, the rule of the House does not allow that to happen, then 
I would ask that the committee would allow for this amendment 
to be made in order so that Members can treat the Constitution 
the same way we, for example, treat the arts in this House.
    This type of provision is not without precedent. The arts 
competition allows for the private sector to finance awards and 
other things to herald the merit of the arts. I think that we 
need to do the same thing for the Constitution.
    The Chairman. John, I do not understand the ethics 
committee's concern here. Let me understand now. What is it 
that you are attempting to do that you are being told you can't 
do? In other words, when will you have copies of the 
Constitution, where did you get them? Is that a government 
publication?
    Mr. Hostettler. The copies of the Constitution we are going 
to ask to be put together by two nonpartisan groups in Indiana 
that because we wished to put the United States Constitution 
with the Declaration and the Indiana State Constitution in one 
document, a document that has not been created, they have 
graciously said that they would finance that, and as a matter 
of fact, the Franking Commission said that a copy that was 
given to them, they said it was frankable but the ethics 
committee said that that could not be put out as part of this 
competition. So that is what I wish to change, part of it, the 
idea. But simply to say that nothing in the rules would 
prohibit a Member from using official sources or nonpartisan 
sources to create a forum for the exposure of young people to 
the Constitution.
    The Chairman. Mr. Dreier.
    Mr. Dreier. Thank you, Mr. Chairman. I just simply would 
like to congratulate you, John, and of course the vision of 
this Committee on Rules for holding this hearing at which your 
amendment was being able to be offered. That is, today is 
September 17, 1997, the 210th anniversary of the signing of the 
U.S. Constitution. I think that your idea is very timely, to 
say the least, and worthy of consideration here.
    Mr. Hostettler. Thank you, Mr. Dreier.
    The Chairman. Mr. Moakley, do you have any questions?
    Mr. Moakley. No, I don't have any questions.
    The Chairman. John, I don't know that we will be able to 
help you. There are other nongermane amendments that have been 
asked for. As much as I would like to, because I am very much 
concerned that there is even a question about this, I would 
like to further look into it and see if we couldn't resolve it 
anyway. But one way or the other, we appreciate your coming 
before us. We will certainly try to help you.
    Mr. Hostettler. Thank you Mr. Chairman.
    The Chairman. Any further questions of the witness?
    If not, thank you very much for coming.
    The Chairman. This concludes the hearing portion of our 
meeting. We will stand in recess for 2 or 3 minutes, subject to 
the call of the Chair.
    [Recess]
    The Chairman. The committee will come to order. Mr. McInnis 
will take his seat.
    Mr. Moakley. Ms. Slaughter wants to vote.
    The Chairman. We understand Ms. Slaughter is on the way, 
and out of courtesy to her, we will wait a couple of minutes 
before we will be in receipt of a motion.
    Mr. Moakley. Out of courtesy to Mr. Frost, we waited all 
this time. We could wait for Ms. Slaughter.
    The Chairman. So, we are in brief recess.
    [Recess.]
    The Chairman. The committee will once again come back to 
order.
    The pending legislation is the ethics reform package before 
us. The Chair will be in receipt of a motion.
    Mr. Dreier. Mr. Chairman, I move the committee grant the 
resolution H.Res. 168 "To Implement the Recommendations of the 
Bipartisan House Ethics Reform Task Force" a modified closed 
rule providing 1 hour of general debate divided equally between 
Representative Livingston and Representative Cardin.
    The rule provides that no amendments will be in order 
except those printed in the Rules Committee report, which may 
be considered only in the order printed in the report, may be 
offered by a Member designated in the report, will be debatable 
for the time specified in the report, and will not be subject 
to amendment.
    Finally, the rule provides for one motion to recommit.
    The Chairman. You have heard the motion by the gentleman 
from California Mr. Dreier. Let me again point out that during 
the hearing, the Chairman of the committee had said that it was 
the intention of the committee not to make in order partisan 
amendments, and we would only consider those that had 
bipartisan support and those that were of particular concern to 
Members on both sides of the aisle.
    We have done just that in making a manager's amendment, 
which is bipartisan, in order, along with an amendment by 
Congressmen Murtha and Tauzin; another by Congressmen Tauzin 
and Murtha; and finally, one by Congressmen Bunning and 
Abercrombie, for a total of four amendments.
    Is there any discussion or amendment thereto?
    Mr. Moakley. Mr. Chairman, I have an amendment to the rule. 
I move that the committee grant H.Res. 168 a modified closed 
rule, that it make in order only an amendment if offered by the 
cochairs of the task force, Representative Cardin and 
Representative Livingston.
    Mr. Chairman, this task force met nearly every day for 3 
months to reach a truly bipartisan agreement on this very 
sensitive and difficult matter. At that time many of us from 
both sides of the aisle had items which we thought would 
improve the final version of the resolution; however, we 
realized that any further change would seriously compromise 
this bipartisan agreement, so we agreed to not to amend the 
package any further unless it was agreed to or offered by both 
Cochairs Cardin and Livingston.
    I think Members should have the opportunity to vote up or 
down on the bipartisan task force's recommendations, and I 
think to open this resolution to amendment at this point would 
effectively kill a truly bipartisan agreement that took many 
months of hard work to reach.
    The Chairman. Well, Mr. Moakley, in arguing against your 
amendment, we, as you know, had taken this back to the caucuses 
of each political party. I think Mr. Cardin took it to your 
Democratic Party, and Mr. Livingston took it to our Republican 
Party, and in both caucuses there was considerable discussion 
about the package, and there were Members on both sides of the 
aisle that wanted to at least have an opportunity to debate 
these particular issues on the floor.
    I believe that we owe it to the membership to let them at 
least discuss them. If, in the infinite wisdom of the full 
body, 435 Members, if they do not believe that these amendments 
should be made in order, I am sure they will vote them down. 
And I have no idea how the outcome will be, but I would insist 
that we at least give the Members that opportunity, and, 
therefore, I would urge defeat of your amendment.
    If there is no further discussion of the gentleman's 
amendment, all those in favor of the Moakley amendment, say 
aye.
    All those opposed, nay.
    The amendment is not agreed to.
    Mr. Moakley. Roll call, Mr. Chairman.
    The Chairman. A roll call is requested. The Clerk will call 
the roll.
    The Clerk. Mr. Dreier.
    Mr. Dreier. No.
    The Clerk. Mr. Dreier votes no.
    Mr. Goss.
    [No response.]
    The Clerk. Mr. Linder.
    [No response.]
    The Clerk. Ms. Pryce.
    [No response.]
    The Clerk. Mr. Diaz-Balart.
    Mr. Diaz-Balart. No.
    The Clerk. Mr. Diaz-Balart votes no.
    Mr. McInnis.
    Mr. McInnis. No.
    The Clerk. Mr. McInnis votes no.
    Mr. Hastings.
    Mr. Hastings. No.
    The Clerk. Mr. Hastings votes no.
    Mrs. Myrick.
    [No response.]
    The Clerk. Mr. Moakley.
    Mr. Moakley. Yes.
    The Clerk. Mr. Moakley votes yes.
    Mr. Frost.
    Mr. Frost. Yes.
    The Clerk. Mr. Frost votes yes.
    Mr. Hall.
    [No response.]
    The Clerk. Ms. Slaughter.
    Ms. Slaughter. Yes.
    The Clerk. Ms. Slaughter votes yes.
    Chairman Solomon.
    The Chairman. No.
    The Clerk. Chairman Solomon votes no.
    The Chairman. The clerk will announce the results.
    The Clerk. 3 yeas and 5 nays.
    Ms. Slaughter. Mr. Chairman, can I ask a question? We were 
going to do all the bipartisan amendments, how come we 
overlooked Dreier and Hamilton?
    Mr. Moakley. We are not finished.
    The Chairman. If we could go back to regular order, I would 
ask the clerk to announce the results and then we can discuss 
others, if you care to.
    The Clerk. Three yeas, five nays.
    The Chairman. And the amendment is not agreed to.
    Are there further amendments or discussion of the package?
    Ms. Slaughter. I do, Mr. Chairman. I would like to make 
amendment that we strike all after the resolving clause and 
insert in lieu thereof the following: Resolved that upon the 
adoption of this resolution it shall be in order to consider in 
the House the resolution H.Res. 168 to implement the 
recommendations of the bipartisan House Ethics Reform Task 
Force.
    The resolution shall be considered as read for amendment. 
The previous question shall be considered as ordered on the 
resolution, and any amendment thereto, and final passage 
without intervening motion or demand for division of the 
question except, (1) 1 hour of debate on the resolution which 
shall be equally divided and controlled by the Chairman and 
Ranking Member of the Committee on Rules or, (2) one motion to 
amend by Representative Livingston of Louisiana with 
concurrence of Representative Cardin of Maryland, which shall 
be in order without intervention of any point of order or 
demand for division of the question, shall be considered as 
read, and shall be separately debatable for 30 minutes equally 
divided and controlled by the proponent and opponent, one 
motion to recommit.
    I liked it so much when Mr. Moakley did it, I thought if we 
repeat it, we could change the vote.
    Mr. Moakley. I would like to recall my vote and vote on 
Louise's.
    The Chairman. I would object to recalling your vote. That 
vote would have to stand. But if the gentlewoman wants to 
insist on her amendment--
    Ms. Slaughter. Not at all, Mr. Chairman. I do not, Mr. 
Solomon.
    The Chairman. You withdraw it?
    Without objection, the gentlewoman will withdraw her 
amendment.
    Ms. Slaughter. If I could say, since I have withdrawn my 
amendment, I would like to say that I want to express my own 
personal disappointment that these amendments were allowed. I 
thought we made it very clear that all of us were extremely 
proud of the product and loved the bipartisanship of it, and I 
think it behooves us to consider that and not mess around with 
it, and I would much have preferred that the document as 
written to have stood.
    The Chairman. I thank the gentlewoman for her comments.
    Are there further comments or amendments to the resolution? 
If not, the Chair would put the question.
    All those in favor of reporting the resolution will say 
aye.
    All those opposed, nay.
    And the resolution is reported.
    Mr. Moakley. Roll call, Mr. Chairman.
    The Chairman. A roll call has been requested. The Clerk 
will call the roll.
    The Clerk. Mr. Dreier.
    Mr. Dreier. Aye.
    The Clerk. Mr. Dreier votes aye.
    Mr. Goss.
    [No response.]
    The Clerk. Mr. Linder.
    [No response.]
    The Clerk. Ms. Pryce.
    [No response.]
    The Clerk. Mr. Diaz-Balart.
    Mr. Diaz-Balart. Yes.
    The Clerk. Mr. Diaz-Balart votes yes.
    Mr. McInnis.
    Mr. McInnis. Yes.
    The Clerk. Mr. McInnis votes yes.
    Mr. Hastings.
    Mr. Hastings. Aye.
    The Clerk. Mr. Hastings votes aye.
    Mrs. Myrick.
    [No response.]
    The Clerk. Mr. Moakley.
    Mr. Moakley. No.
    The Clerk. Mr. Moakley votes no.
    Mr. Frost.
    Mr. Frost. No.
    The Clerk. Mr. Frost votes no.
    Mr. Hall.
    [No response.]
    The Clerk. Ms. Slaughter.
    Ms. Slaughter. No.
    The Clerk. Ms. Slaughter votes no.
    Chairman Solomon.
    The Chairman. Yes.
    The Clerk. Chairman Solomon votes aye.
    The Chairman. And the Clerk will announce the results.
    The Clerk. Five yeas, three nays.
    The Chairman. And this resolution which does allow the 
House to work its will is reported. And Mr. Solomon, the 
Chairman, will carry for the Majority.
    Mr. Moakley. And Mr. Moakley, the Ranking Minority Member, 
will carry for the committee.
    The Chairman. Well, Joe, let me just say I hope you are 
Ranking Minority Member for many years to come.
    Mr. Moakley. No, I don't think so.
    The Chairman. That is the only business to come before the 
body. There is a possibility that if the census problem is 
worked out with the administration, with the White House, that 
we could be meeting about 2 o'clock tomorrow afternoon. 
However, I would just make mention that this will be the only 
business that will be on the floor tomorrow, and because of the 
limited number of amendments that were made in order, we should 
be done with this by 1:30 or so, and I would hope the Members 
would wait around just in case we have to do a Rules Committee 
meeting later in the afternoon.
    And I thank those of you who didn't understand that there 
was going to be a meeting later on tonight for returning. Thank 
you very much. The meeting is adjourned.
    [Whereupon, at 6:15 p.m., the committee was adjourned.]

                                  <all>
</pre></body></html>
